                                                                    EMPLOYMENT STANDARDS
                      Office of Inspector General—Office of Audit   ADMINISTRATION
Department of Labor




                                                                    AN EVALUATION OF FECA
                                                                    RESPONSIVENESS AND CUSTOMER
                                                                    SURVEYS




                                                                                    Date issued: September 30, 2004
                                                                                    Report Number: 02-04-203-04-431
Department of Labor                                SEPTEMBER 2004
Office of Inspector General
Office of Audit
                                                   DISTRICT OFFICE
                                                   RESPONDED TO FECA
BRIEFLY…                                           COMPLAINTS
Highlights of Report Number: 02-04-203-
                                                   EFFICIENTLY, BUT
04-431, a report to the Assistant                  OWCP NATIONWIDE
Secretary, Employment Standards
Administration. September 30, 2004.                CUSTOMER
WHY READ THE REPORT                                SATISFACTION SURVEY
 The Federal Employees’ Compensation Act
                                                   COULD BE IMPROVED
(FECA) pays wage replacement, medical
                                                   WHAT OIG FOUND
treatment, vocational rehabilitation, and
other benefits to eligible Federal civilian
                                                   Our evaluation found that:
workers who suffer work-related injuries
or occupational diseases, and their
                                                   OWCP’s New York District Office responded
dependents. The Employment Standards
                                                   to and resolved most of the complaints it
Administration’s (ESA’s) Office of Workers'
                                                   received. Despite a heavy workload and time-
Compensation Programs (OWCP)
                                                   consuming duties, response time was generally
administers the program. In FY 2003,
                                                   satisfactory. Complaint resolution times varied,
FECA paid approximately $2.3 billion in
                                                   depending on the complexity of issues involved.
benefits and adjudicated 202,500 cases.
Recent Congressional hearings have
                                                   OWCP’s nationwide telephone survey
focused on reforms to reduce costs and
                                                   provided limited information on customer
risks for fraud, waste and abuse.
                                                   satisfaction. OWCP only surveyed
                                                   claimants who called into the district office, did
WHY OIG DID THE AUDIT                              not survey employing agencies or claimants who
                                                   wrote in, and failed to ask about underlying
The OIG evaluated customer service                 causes of overall dissatisfaction with a call.
provided by OWCP’s Division of Federal
Employees' Compensation. The objectives            WHAT OIG RECOMMENDED
were to determine: (1) how OWCP’s New
York District Office responded to                  We recommended that the Assistant Secretary
complaints or inquiries filed under the            for Employment Standards:
FECA; and (2) if nationwide OWCP surveys
were useful in evaluating customer service            •   Establish separate customer surveys and
satisfaction. The evaluation covered FECA                 performance goals for employing
customer service provided by OWCP in FY                   agencies.
2003 and surveys performed by OWCP
from 1996 to October 2003.                            •   Add follow-up questions to OWCP’s survey
                                                          on FECA customer service to determine
READ THE FULL REPORT                                      the underlying causes of dissatisfaction
                                                          with telephone calls.
To view the report, including the scope,
methodology, and full agency response,             Generally, ESA disagreed with the
go to:                                             recommendations. ESA’s response cited resource
                                                   constraints, ongoing efforts to address our
http://www.oig.dol.gov/public/reports/oa/2004/02   findings, and concerns about lengthening the
-04-203-04-431.pdf
                                                   customer service survey.
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________


TABLE OF CONTENTS_________________________
                                                                                     page



EXECUTIVE SUMMARY………………………………………………………………………i

ASSISTANT INSPECTOR GENERAL’s REPORT…………..…………………………….1

Objective I Results:    OWCP’s New York District Office Responded To and
                        Resolved Most Complaints...………...……………….………..1

                        Recommendation...…….………………………………….……...5

Objective II Results: OWCP’s Nationwide Telephone Survey Provided a
                      Limited Indication of Customer Satisfaction…………………5

                        Recommendations…..…………………………………………....7

APPENDICES

       I.     Background………………………………………………………………….. 10

       II.    Scope and Methodology…………...……………………………………….12

       III.   Sampling Results ..…….…………...……………………………………….13

       IV.    Acronyms ……………………..…….……..……………………………….…15

       V.     ESA Response …………..…….……..……………………………….…..….17




_________________________________________________________________________________________
U.S. Department of Labor – Office of Inspector General
Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________


EXECUTIVE SUMMARY_______________________
The U.S. Department of Labor (DOL), Office of Inspector General (OIG), conducted an
evaluation of the customer service provided in Fiscal Year (FY) 2003 by the Division of Federal
Employees' Compensation, which is administered by the Office of Workers' Compensation
Programs (OWCP). The objectives of the evaluation were to answer the following questions for
FY 2003:

        I. How did OWCP’s New York District Office respond to complaints or inquiries filed
           under the Federal Employees' Compensation Act (FECA)?

        II. How useful were nationwide OWCP customer surveys in evaluating
            satisfaction?

We determined that despite time-consuming duties and heavy workload, OWCP’s New York
District Office responded to and resolved most of the complaints it received. Response time was
generally satisfactory, but the time to resolve complaints varied depending on the complexity of
issues involved.1 However, OWCP's telephone surveys provide a limited indication of customer
satisfaction.

Recommendations

We recommend that the Assistant Secretary for the Employment Standards Administration
(ESA):

        •    Establish separate customer surveys and performance goals for employing agencies.

        •    Include follow-up questions to determine the underlying causes of overall
             dissatisfaction with telephone calls.


The Assistant Secretary for ESA provided comments on the draft report on September 30, 2004.
We have modified the report as appropriate in response to ESA’s comments.

Generally, ESA disagreed with the recommendations. Also, in consideration of ESA’s
comments, we have dropped from this final report two recommendations that were discussed in
the draft. Portions of ESA’s response to the draft report have been incorporated into appropriate
sections of the report with our comments. The response is included in its entirety in
Appendix V.




_______________
1
  The evaluation did not include complaints found in scanned documents. It was not feasible for us to identify,
  sample, and project these complaints for FY 2003. We sampled telephone calls, e-mails and Congressional
  inquiries sent to the New York District Office. See Appendix III.
U.S. Department of Labor – Office of Inspector General                                                            i
Report Number: 02-04-203-04-431
U.S. Department of Labor                                      Office of Inspector General
                                                              Washington, DC. 20210




                               Assistant Inspector General’s Report

Victoria A. Lipnic
Assistant Secretary for
 Employment Standards
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

We have conducted an evaluation of the customer service provided by the Division of Federal
Employees' Compensation, which is administered by the Office of Workers' Compensation
Programs (OWCP). The objectives of the evaluation were to answer the following questions for
FY 2003:

        I. How did OWCP’s New York District Office respond to complaints or
           inquiries filed under the Federal Employees' Compensation Act (FECA)?

        II. How useful were nationwide OWCP customer surveys in evaluating
            satisfaction?

We conducted our evaluation in accordance with the Quality Standards for Inspections published
by the President’s Council on Integrity and Efficiency. Background, scope and methodology,
and sampling results are detailed in Appendices I, II, and III.

Results
Objective I Results: OWCP’s New York District Office Responded To and Resolved
                               Most Complaints

Despite time-consuming duties and heavy workload, OWCP’s New York District Office
responded to and resolved most of the complaints it received. Response time was generally
satisfactory, but the time to resolve complaints varied depending on the complexity of issues
involved.2 While there are no time standards to resolve complaints, OWCP has established the
following standards for claim examiner responsiveness:




_______________
2
  The evaluation did not include complaints found in scanned documents. It was not feasible for us to identify,
  sample, and project these complaints for FY 2003. We sampled telephone calls, e-mails and Congressional
  inquiries sent to the New York District Office. See Appendix III.
U.S. Department of Labor – Office of Inspector General                                                            1
Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________



                                       Communication                       Days

                                         Telephone                           3
                                         E-mail                              3
                                         Congressional Letters              14
                                         Scanned Documents                  30

OWCP receives various communications from its customers who submit forms, provide
correspondence supporting medical and compensation claims, request information, and submit
complaints. We estimated there were over 700,000 communications received in FY 2003 at the
New York District Office, as detailed below:

                •   645,000 documents scanned into OASIS (OWCP Automated System for Imaging
                    Services),

                •   68,000 incoming telephone calls,4

                •   748 letters from congressional representatives, and

                •   478 e-mails handled by the communications specialist.

                        Given the volume of information, each claims examiner manages a
           HEAVY        significant daily workload, handling approximately 69 communications
  COMMUNICATIONS        varying greatly in complexity, from changing an address to processing
     WORKLOAD           documentation for surgical requests. Further, claims examiners must
                        respond to customers either in writing or by telephone, explaining FECA
processing procedures, adjudicating claims, procuring relevant medical documentation, and
handling issues of claimant income and medical status.

                       We estimated that 10,954 or 51 percent of telephone calls, congressional
        COMPLAINTS     letters, and e-mails handled by claims examiners in the New York
                       District Office were complaints.5 With the exception of congressional
                       letters, OWCP does not segregate or monitor complaints from other
communications. As shown on the next page, a larger percentage of complaints were found in
telephone and Congressional communications than e-mails.




_______________
3
    Of the 68,000 incoming telephone calls, 20,099 calls were directed to claims examiners.
4
  By examining scanned documents in OASIS that were unreviewed by claims examiners on December 1, 2003 and
December 3, 2003, we estimated that 1.8 percent of scanned documents represented complaints. These test results
are not projectable since this 2-day period is beyond our evaluation period and is not a sufficient number of days for
projection. However, if this rate were representative of FY 2003 activity of scanned documents, the overall
incidence of complaints, including telephone calls, Congressional letters, and e-mails, could be as low as 3 percent
of all communications received for the New York District office.
2                                                      U.S. Department of Labor – Office of Inspector General
                                                       Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________




                 Communication                 Total               Estimated                Complaints as
                    Types                     Volume               Number of                Percentage of
                                                                  Complaints by             Total Volume
                                                                     Source

       Telephone Calls                         20,099                      10,170                 51

       Congressional Letters                        748                      650                  87

       E-mails                                      478                      134                  28

       Total                                   21,325                      10,954                 51

Based on a statistical sample of 196 complaints, we found that claimants were the major source
of complaints (72 percent), followed by employing agencies (16 percent), medical providers (10
percent), and others (2 percent). As illustrated below, the four major complaint issues were
compensation payment, medical bill payment, claims adjudication, and medical authorization.
Compensation payment (44 percent) represented the largest reason for complaint.

                                              Complaint Issues

                 50        44%

                 40
       Percent




                 30
                                         19%                 18%
                 20
                                                                                 11%
                                                                                               8%
                 10

                  0
                      Compensation   Medical Bill     Claim Adjudication      Medical         Other
                        Payment       Payment               Status          Authorization


In its response to the draft report, ESA stated that: “The definition of a complaint as stated in
Appendix III, Sampling Results, included claimants not receiving compensation and requests for
justification of surgery denials that may bias the results. There are a number of reasons a
claimant might not receive compensation including denial of their claim or reduction in their
entitlement. . . .”

We do not disagree; however, the purpose of the evaluation was to assess ESA’s responsiveness
to complaints and not the validity of the complaint. ESA also stated that the telephone complaint
percentage was significantly overstated and that calls referred to the claims examiner were more
likely to be complaints than those handled by the phone bank. However, the New York District
Office did not keep detailed records on the nature of calls received by the phone bank that were
not forwarded to a claims examiner for further processing.
U.S. Department of Labor – Office of Inspector General                                                      3
Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________


                               In an examination of the average response times for 96 complaints
           RESPONSE TIME
                               sampled, the New York District Office generally met the required
                               response standards for 40 telephone calls and 40 congressional
                               letters tested. However when the established goal of meeting those
standards 90 percent of the time is applied, only:

             •   78 percent (31 of 40) of telephone calls are within the 3-day standard, and

             •   88 percent (35 of 40) of Congressional letters are within the 14-day standard.

The office generally did not respond timely to 16 e-mail complaints reviewed.6
                           C om plaint R esponse T im eliness FY 2003
                                                                           14
                                                                  13.5
            14
            12
            10
             8
    Days




                     6.5                                                               S am ple
             6                                                                         S tandard
                                            3.5
             4                  3                      3

             2
             0
                      E-m ail              Telephone             Congressional


Out of a sample of 16 e-mail complaints, 5 responses or 31 percent exceeded the response
standard of 3 workdays. Two responses exceeded the standard by only 1 day, but 3 responses
exceeded the standard by 6, 26, and 27 workdays. It is important to note that e-mails did not
constitute a large percentage of overall communications, and the relatively recent
implementation of the e-mail system may have contributed to the slow response time. ESA’s
response to the draft report noted that DFEC does not maintain a nationwide correspondence
system, although the New York District Office briefly experimented with, and discontinued,
such a system to communicate with employing agencies.

                                Of the 96 complaints, 88 complaints or 92 percent were resolved. As of
    RESOLUTION OF               January 14, 2004, the remaining 8 complaints were still unresolved
      COMPLAINTS                covering 5 to 15 months timeframes. As shown below, half of the
                                unresolved complaints were e-mails.




_______________
5
  We did not examine the timeliness of complaints contained in scanned documents because of the time-consuming
nature of finding complaints within case files.
4                                                      U.S. Department of Labor – Office of Inspector General
                                                       Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________

                                       Telephone     Congressional E-mail Total

   Sample of Complaints                   40             40          16       96

   Complaints Unresolved                   2              2            4       8

   Percentage Unresolved                   5              5          25        8

The time to resolve a complaint varies from case to case. Complaints regarding the need for
surgery approval may take as long as several months, while less complex complaints such as
receiving incorrect information from a claims examiner for completing a FECA claim form
can be corrected quickly by telephone.

Recommendation

There is no recommendation associated with this objective.


Objective II Results: OWCP's Nationwide Telephone Survey Provided a
                      Limited Indication of Customer Satisfaction
The OWCP telephone survey provided some useful information on evaluating the manner and
responsiveness of claims examiners, but had several limitations in gauging customer satisfaction.
First, OWCP only surveyed claimants who telephoned the district office. OWCP did not survey
employing agencies at all or claimants who wrote in. Second, the survey only inquired as to
claimant satisfaction with how the call was handled and not overall satisfaction with the service
provided by OWCP. Finally, questions were not asked to establish the underlying causes of
overall dissatisfaction with a call. As a result, the current customer satisfaction measures and
goals, which are based on the survey, have limited usefulness.

 TELEPHONE               OWCP’s telephone survey was first initiated in FY 2001 and surveyed
 SURVEYS                 only claimants who called the district office. Prior to 2001, OWCP
                         conducted a written customer survey of people who filed a claim.

The change in the survey methodology led to an increased response rate, but this has been offset
by the following limitations:

Limited survey population

The telephone call-back survey population is limited because it does not include customers who
write to OWCP, or employing agency communications. Since claimants communicate in writing
more than by telephone, limiting the survey to just those that call ignores a substantial
population. Establishing separate employing agency surveys and goals would be helpful in
determining the areas and magnitude of employing agency concerns. Medical providers were
first surveyed in August 2003.


U.S. Department of Labor – Office of Inspector General                                             5
Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________


Overall satisfaction with program

The present telephone survey measures claimant satisfaction with respect to OWCP telephone
assistance but not with overall service provided. To enhance the usefulness of the survey,
OWCP should ask all surveyed claimants questions regarding satisfaction with service across-
the-board. The prior written survey asked claimants to rate overall satisfaction with assistance
they received. Claimants were also asked to rate the handling of both their written
correspondence and telephone contacts with OWCP. Further, the medical survey requested that
medical providers submit feedback regarding both OWCP service and how their calls were
handled.

Overall satisfaction with calls

Underlying causes of dissatisfaction with calls were not identified. Claimants gave high ratings
on individual aspects of calls (e.g., 94 percent were satisfied with the claims examiners use of
clear language), but gave the overall experience with calls a rating of 57 percent. Open-ended
questions, which were part of the prior written surveys, are not used in the current telephone
survey. This shortcoming limited OWCP’s potential to identify the causes of the overall
satisfaction level. OWCP’s contractor who performed the medical provider survey expressed a
similar concern. The contractor stated in its report7 that, “The survey results do not get to the
underlying causes of this dissatisfaction. . . .”

Although overall satisfaction with a call is addressed, there is no benchmark used to determine
how favorably or unfavorably OWCP’s satisfaction levels are as compared to state workers’
compensation or other disability programs.

                                As a result, the above survey limitations detract from the
    SATISFACTION                usefulness of customer satisfaction performance measures and
    GOALS AND                   goals established in the DOL Strategic Plan for FYs 2003 through
    MEASURES                    2008. A goal for FECA outlined in the DOL Strategic Plan is to
                                meet the targets in FY 2008 for:
            •   availability and access to electronic information services,

            •   telephone responsiveness,

            •   call handling accuracy,

            •   assistance effectiveness, and

            •   call handling quality




_______________
6
  Findings: Provider Telephone Customer Service, prepared by Maximum Research, October 2003.
6                                                U.S. Department of Labor – Office of Inspector General
                                                 Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________

           .
Performance measures of customer satisfaction rely solely on telephone customer surveys.
However, the surveys do not present a complete picture due to the exclusion of customer groups
and the lack of probing questions that address overall dissatisfaction with the customer service
provided by the call.


Recommendations

We recommend the Assistant Secretary for Employment Standards:

   1. Establish separate customer surveys and performance goals for employing agencies.

   2. Include follow-up questions to determine underlying causes of overall dissatisfaction
      with telephone calls.

Portions of ESA’s response to Objective II and applicable OIG comments follow.


Recommendation 1

ESA Response

“This recommendation addresses program efforts underway. Due to resource constraints,
employing agencies were not surveyed in prior years, but are included in the FY 2004 customer
service satisfaction survey. The current customer service goal is directed at performance levels
for all customers, including claimants, medical providers and employing agencies.”

OIG Comments

We continue to recommend the establishment of separate surveys and performance goals for
employing agencies to isolate the results for employing agencies.


Recommendation 2

ESA Response

“The questions already included in the survey enable the program to determine causes of
dissatisfaction. The call back or telephone survey was designed to focus on specific aspects of
the call, and it was found that open-ended comments did not get at service issues. The length of
the survey is a serious consideration and the addition of questions as recommended would add
length without furthering the purpose of the survey.”




U.S. Department of Labor – Office of Inspector General                                             7
Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________

OIG Comments

The high levels of satisfaction attained for the individual aspects of calls, compared to the much
lower overall experience with call ratings, indicate that the causes of dissatisfaction have not
been determined. If ESA believes that open-ended questions are not a suitable method for
determining the causes of dissatisfaction, another method must be devised.




Elliot P. Lewis
Assistant Inspector General
 for Audit

January 14, 2004




8                                            U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________




                                     APPENDICES




U.S. Department of Labor – Office of Inspector General      9
Report Number: 02-04-203-04-431
FECA Responsiveness and Customer Surveys
______________________________________

                                                                                     APPENDIX I
BACKGROUND________________________________

Federal Employees’ Compensation Act

The Federal Employees’ Compensation Act (FECA) provides payment for several types of
benefits, including compensation for wage loss, medical and related benefits, and vocational
rehabilitation services. These payments are for conditions in which civilian employees of the
Federal Government have sustained injuries or contracted occupational disease or illness during
performance of their work. FECA also provides for payment of monetary compensation to
specified survivors (i.e., spouse and dependant children) of an employee whose death results
from work-related injury or disease. The DOL Office of Workers' Compensation Programs
(OWCP) administers FECA provisions and payments.

During FY 2003, the program paid approximately $2.3 billion in wage compensation and
medical benefits. During that year, 202,500 cases were adjudicated. OWCP approved 178,300
cases and denied 24,200 cases. Program outlays are billed to the employing agencies for fund
replenishment through “chargeback” expense charges. The U.S. Postal Service claimants
incurred the highest expenditures at $835 million.

OWCP District Office Communications

Each OWCP district has a communications specialist who follows up with OWCP customers by
conducting quarterly call-back telephone surveys. The communications specialist accumulates
statistics including telephone bank call volume and “time in queue,” and reports results to
headquarters. Headquarters provides feedback to the district office on results.

Communications come into OWCP by various methods. Correspondence is scanned into the
OWCP Automated System for Imaging Services (OASIS) by a contractor at a central mailroom
in London, Kentucky, and to a more limited extent, at each OWCP district. Telephone calls are
received at each district office central telephone bank where an initial attempt is made to handle
the call. If the call cannot be fully answered or resolved at that point, the Auto 110 System refers
it electronically to the claims examiner responsible for the case. Other communications tracked
by the communications specialists are e-mails and Congressional correspondence.


Customer Surveys

Since 2001, OWCP has conducted customer telephone surveys to determine the degree of
customer satisfaction with the FECA program. The FECA district offices have performed
telephone surveys for the first three quarters of each fiscal year, while a private contractor
performed it in the last quarter. Only claimants who call the district offices are surveyed. In
August 2003, OWCP expanded its telephone customer surveys to include a survey of medical
providers who had called the FECA district office. Between the years 1996 and 2000, OWCP



10                                           U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________

had a contractor perform written customer surveys. The survey population included claimants
who contacted OWCP within a specified time period.

Customer Performance Goals

A performance goal for FECA, contained in ESA’s strategic plan for 1999 through 2004, was to
improve customer satisfaction with FECA services by 10 percentage points from the FY 2000
baseline. However, the survey changed in 2000 from a written to a telephone format, and the
population surveyed changed from all claimants to only those that called the districts’ centralized
telephone system. Due to the changed format, OWCP could not compare customer satisfaction
results to determine whether the 10 percentage point improvement goal was attained.

A goal for FECA outlined in the DOL Strategic Plan is to meet the targets in FY 2008 for:

           •   availability and access to electronic information services,

           •   telephone responsiveness,

           •   call handling accuracy,

           •   assistance effectiveness, and

           •   call handling quality


Medical Payment System

On September 2, 2003, OWCP contracted out medical authorization and bill payment to a private
contractor, ACS (Affiliated Computer Services). The new system allows the contractor to
approve medical services based on established guidelines and OWCP staff decisions regarding
covered conditions. Also, claimants can check the status of bills or claims for reimbursement
online. This new system is expected to allow claims examiners to devote more time to
entitlement issues and return to work efforts.




U.S. Department of Labor – Office of Inspector General                                           11
Report Number: 02-04-203-04-431
FECA Responsiveness and Customer Surveys
______________________________________



                                                                                   APPENDIX II
SCOPE AND METHODOLOGY__________________
We conducted an evaluation of the level of FECA customer service during FY 2003 provided by
OWCP. The evaluation included:

     •   interviewing OWCP officials in the New York and Washington, D.C. offices,

     •   analyzing nationwide customer satisfaction surveys performed by OWCP from 1996 to
         October 2003, and

     •   identifying and sampling customer complaints at the New York District Office (see
         Appendix III).

Our evaluation did not include customer service provided by ACS, which on September 2, 2003,
assumed responsibility for medical bill payments. Scanned documents, which were a large
portion of OWCP communications, were not included in our sample of complaints. Although
scanned correspondence is counted and batched, ACS does not maintain a means for readily
identifying the corresponding claimant and the nature of that correspondence. As a result,
information needed to identify and analyze complaints was not presented in a manner conducive
to perform an evaluation. To identify complaints in scanned documents would involve searching
through individual case files and would be unreasonably time-consuming.

We conducted our evaluation in accordance with the Quality Standards for Inspections published
by the President’s Council on Integrity and Efficiency. Fieldwork was conducted from
June 30, 2003, to January 14, 2004, at the OWCP National Office and district offices in New
York and Washington D.C. An exit conference was held with OWCP on August 16, 2004.




12                                           U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________

                                                                                                APPENDIX III


SAMPLING RESULTS__________________
OWCP and its district offices did not separate complaints from other communications included
in the telephone and written communications from claimants, employing agencies, medical
providers, and other interested parties. Therefore, we used statistical sampling to identify,
compile and analyze the New York District Office complaints.

A sample of 405 telephone, e-mail8, and congressional inquiries was selected. The total sample
size for telephone inquiries was 180. The sampling methodology for telephone inquiries is shown
below:

    •   A three stage stratified cluster sampling design was chosen for telephone inquiries.

    •   The months of the year were stratified into three separate strata according to the number
        of total phone calls received.

    •   Six months were randomly selected from these strata.

    •   A random sample of 6 days was selected from each selected month.

    •   A random sample of at least five inquiries was drawn from each of the selected days.


A random sample of 108 e-mails and 117 Congressional inquiries was also selected using a
simple random sampling plan.

Of the 405 randomly selected communications, 196 complaints were identified. Of the 196
identified complaints, we judgmentally selected 96 complaints to evaluate.

We considered communications as “complaints” if they included claimants not receiving
compensation, medical providers not being paid on invoices for authorized service, and
claimants not receiving a response on requests for change of physician, physical therapy, and
justification for surgery denial. Requests for services, compensation, forms, and informational or
clarification requests were not considered complaints.

The point estimate and limits of the estimated complaints at a 95 percent confidence level are on
the next page.




_______________
7
  Includes 7.5 months activity because in the New York District office e-mails were first logged as a communication
source on February 14, 2003.

U.S. Department of Labor – Office of Inspector General                                                           13
Report Number: 02-04-203-04-431
FECA Responsiveness and Customer Surveys
______________________________________



                              Total             Point
Communication Types           Volume           Estimate                 Limits

Telephone Calls              20,099               10,170              8,697 –11,643

Congressional Letters           748                  650                602 – 698

E-mail                          478                  134                  94 –174

              Total          21,325               10,954             9,393 –12,515




14                                     U.S. Department of Labor – Office of Inspector General
                                       Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________



                                                            APPENDIX IV



ACRONYMS________________________________
ACS            Affiliated Computer Services

DOL            U.S. Department of Labor

ESA             Employment Standards Administration

FECA           Federal Employees’ Compensation Act

FY             Fiscal Year

OASIS          OWCP Automated System for Imaging Services

OIG            Office of Inspector General

OWCP           Office of Workers’ Compensation Programs




U.S. Department of Labor – Office of Inspector General                    15
Report Number: 02-04-203-04-431
FECA Responsiveness and Customer Surveys
______________________________________




           <THIS PAGE INTENTIONALLY LEFT BLANK>




16                                    U.S. Department of Labor – Office of Inspector General
                                      Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________

                                                            APPENDIX V




                                       ESA RESPONSE




U.S. Department of Labor – Office of Inspector General              17
Report Number: 02-04-203-04-431
FECA Responsiveness and Customer Surveys
______________________________________




18                                    U.S. Department of Labor – Office of Inspector General
                                      Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________




U.S. Department of Labor – Office of Inspector General      19
Report Number: 02-04-203-04-431
FECA Responsiveness and Customer Surveys
______________________________________




20                                    U.S. Department of Labor – Office of Inspector General
                                      Report Number: 02-04-203-04-431
An Evaluation of FECA Responsiveness and Customer Surveys
______________________________________




U.S. Department of Labor – Office of Inspector General      21
Report Number: 02-04-203-04-431
FECA Responsiveness and Customer Surveys
______________________________________




22                                    U.S. Department of Labor – Office of Inspector General
                                      Report Number: 02-04-203-04-431
